      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                           Washington, D.C. 20201




March 2, 2011

TO:             Donald M. Berwick, M.D.
                Administrator
                Centers for Medicare & Medicaid Services

                /Diann M. Saltman/ for
FROM:           George M. Reeb
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Review of Erectile Dysfunction Drugs in the Medicare Part D Program
                (A-07-10-03143)


The attached final report provides the results of our review of erectile dysfunction drugs in the
Medicare Part D program.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(410) 786-7104 or through email at George.Reeb@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-07-10-03143
in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




           REVIEW OF
  ERECTILE DYSFUNCTION DRUGS
IN THE MEDICARE PART D PROGRAM




                       Daniel R. Levinson
                        Inspector General

                          March 2011
                         A-07-10-03143
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Medicare Part D Prescription Drug Coverage

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug benefit. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Medicare Part A or enrolled in Medicare Part B may obtain drug coverage.

The Centers for Medicare & Medicaid Services (CMS), which administers Medicare, contracts
with private prescription drug plans and Medicare Advantage plans (collectively known as
sponsors) to offer prescription drug benefits to eligible individuals under Medicare Part D.
Every time a beneficiary fills a prescription covered under Part D, the sponsor must submit
prescription drug event (PDE) data, including drug cost and payment information, to CMS.
Sponsors are required to submit final PDE data within 6 months after the end of the coverage
year.

Medicare Part D Excluded Drugs

The MMA requires that a drug meet the definition of a Part D drug to be covered by the Part D
program. Certain drugs or classes of drugs, or their medical uses, may be excluded from
coverage or otherwise restricted under sections 1927(d)(2) or (d)(3) of the Act, except for
smoking cessation agents.

Effective January 1, 2007, P.L. No. 109-91, section 103, amended section 1860D-2(e)(2)(A) of
the Act to exclude from the statutory definition of a Part D drug “… a drug when used for the
treatment of sexual or erectile dysfunction, unless such drug were used to treat a condition, other
than sexual or erectile dysfunction, for which the drug has been approved by the Food and Drug
Administration” (FDA). An erectile dysfunction (ED) drug meets the definition of a Part D drug
when it is prescribed for medically accepted indications other than sexual or erectile dysfunction
(such as pulmonary hypertension) for which the drug has been approved by FDA.

OBJECTIVE

Our objective was to determine the extent to which CMS accepted PDE data that sponsors
submitted for ED drugs used for the treatment of sexual or erectile dysfunction.

SUMMARY OF FINDING

Of approximately $133 billion in gross drug costs included in sponsors’ PDE data for calendar
years (CY) 2007 and 2008, CMS accepted PDE data totaling $3,107,200 in gross drug costs for
ED drugs approved only for the treatment of sexual or erectile dysfunction. Pursuant to Federal
requirements, Part D should not have covered these drugs.




                                                 i
According to CMS officials, the software edit in place in CMS’s Medicare Drug Data Processing
System during our audit period enabled CMS to identify and reject PDE data that sponsors
submitted for ED drugs prescribed for the treatment of sexual or erectile dysfunction. However,
according to the officials, the edit did not prevent CMS from accepting PDE data for some ED
drugs in CY 2007 and most of CY 2008 because the Part D program used an incomplete list of
excluded drugs as the basis for the edit. Although the officials indicated that CMS had updated
its list of ED drugs in CY 2008, CMS accepted PDE data for some ED drugs during our entire
audit period.

RECOMMENDATIONS

We recommend that CMS:

   •   determine whether it can impose financial adjustments on sponsors that were paid for
       furnishing ED drugs used for the treatment of sexual or erectile dysfunction and

   •   strengthen internal controls to help ensure that drugs covered by Medicare Part D comply
       with Federal requirements by:

       o collaborating with FDA to create and maintain a comprehensive list of ED drugs that
         have been approved by FDA for the treatment of sexual or erectile dysfunction,

       o regularly disseminating this list to all sponsors, and

       o periodically updating the edit used to reject PDE data for ED drugs used for the
         treatment of sexual or erectile dysfunction.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our first recommendation and
described corrective actions it was taking. For our second recommendation, CMS concurred that
it should strengthen internal controls but did not concur that it should (1) collaborate with FDA
to create and maintain a comprehensive list of ED drugs that have been approved by FDA for the
treatment of sexual or erectile dysfunction and (2) regularly disseminate the list to sponsors.
CMS’s comments appear in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in CMS’s comments has caused us to change our findings or recommendations. As the
administrator of the Medicare Part D program, CMS has the primary responsibility to ensure that
sponsors are administering their Part D plans appropriately. Therefore, we continue to
recommend that CMS regularly disseminate a list of ED drugs approved by FDA for the
treatment of sexual or erectile dysfunction to all sponsors to ensure compliance within the Part D
program.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Part D Prescription Drug Coverage .....................................................1
              Medicare Part D Excluded Drugs ........................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2

FINDING AND RECOMMENDATIONS ...............................................................................3

          ERECTILE DYSFUNCTION DRUG COSTS ................................................................3

          INADEQUATE CONTROLS ........................................................................................ 3

          RECOMMENDATIONS .................................................................................................4

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ....................4

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................4

APPENDIXES

          A: SUMMARY OF MEDICARE PART D ERECTILE DYSFUNCTION DRUGS
             USED FOR THE TREATMENT OF SEXUAL OR ERECTILE DYSFUNCTION

          B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Medicare Part D Prescription Drug Coverage

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug benefit. 1 Under Part D, which began January 1, 2006, individuals entitled to
benefits under Medicare Part A or enrolled in Medicare Part B may obtain drug coverage. The
Centers for Medicare & Medicaid Services (CMS), which administers Medicare, contracts with
private prescription drug plans and Medicare Advantage plans (collectively known as sponsors)
to offer prescription drug benefits to eligible individuals under Medicare Part D.

Every time a beneficiary fills a prescription covered under Part D, the sponsor must submit
prescription drug event (PDE) data to CMS. PDE data include drug cost and payment
information to enable CMS to administer the Part D benefit. Pursuant to 42 CFR § 423.343(c)(1),
sponsors must submit final PDE data to CMS within 6 months after the end of the coverage year.
For calendar years (CY) 2007 and 2008, sponsors submitted final PDE data totaling
approximately $133 billion in gross drug costs. CMS’s PDE Instructions: Requirements for
Submitting Prescription Drug Event Data, section 7.2.3, defines gross drug costs as the sum of
the following PDE payment fields: covered plan-paid amount, noncovered plan-paid amount,
patient-pay amount, low-income cost-sharing payment, other true out-of-pocket costs, and patient
liability reduction as a result of another payer amount.

Sections 1860D-14 and -15 of the Act provide that CMS pay sponsors for Part D benefits
prospectively based in part on information in the sponsors’ approved annual bids. After the close
of the coverage year, CMS is responsible for reconciling the prospective payments with the
sponsors’ actual costs and for determining the amount that each sponsor will owe to or receive
from Medicare for the plan year. CMS’s reconciliations are based on sponsors’ final PDE data. 2

Medicare Part D Excluded Drugs

The MMA requires that a drug meet the definition of a Part D drug to be covered by the Part D
program. Certain drugs or classes of drugs, or their medical uses, may be excluded from
coverage or otherwise restricted under sections 1927(d)(2) or (d)(3) of the Act, except for
smoking cessation agents. 3

Effective January 1, 2007, P.L. No. 109-91, section 103, amended section 1860D-2(e)(2)(A) of
the Act to exclude from the statutory definition of a Part D drug “… a drug when used for the
treatment of sexual or erectile dysfunction, unless such drug were used to treat a condition, other

1
    P.L. No. 108-173 § 101, § 1860D-1(a) of the Act, 42 U.S.C. § 1395w-101(a).
2
    42 CFR § 423.343.
3
    Section 1860D-2(e)(2); see also 42 CFR § 423.100.

                                                         1
than sexual or erectile dysfunction, for which the drug has been approved by the Food and Drug
Administration” (FDA). An erectile dysfunction (ED) drug meets the definition of a Part D drug
when it is prescribed for medically accepted indications other than sexual or erectile dysfunction
(such as pulmonary hypertension) for which the drug has been approved by FDA.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the extent to which CMS accepted PDE data that sponsors
submitted for ED drugs used for the treatment of sexual or erectile dysfunction.

Scope

The audit covered approximately $133 billion in gross drug costs reflected in sponsors’ final
PDE data for CYs 2007 and 2008.

We limited our internal control review to CMS’s policies and procedures for preventing Part D
reimbursement of ED drugs used for the treatment of sexual or erectile dysfunction. CMS was
unable to provide us with a list of such ED drugs. Therefore, we relied on FDA for this
information. We did not review the accuracy or completeness of the PDE data.

We conducted our audit from November 2009 to September 2010.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and program guidance;

   •    interviewed CMS officials responsible for administering the Part D program;

   •    obtained from FDA a list of ED drugs;

   •    obtained the PDE data for the ED drugs for which the only indication approved by FDA
        was the treatment of sexual or erectile dysfunction; and

   •    shared the results of our review with CMS officials on September 29, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.




                                                2
                                 FINDING AND RECOMMENDATIONS

Of approximately $133 billion in gross drug costs included in sponsors’ PDE data for CYs 2007
and 2008, CMS accepted PDE data totaling $3,107,200 in gross drug costs for ED drugs
approved only for the treatment of sexual or erectile dysfunction. 4 Pursuant to Federal
requirements, Part D should not have covered these drugs.

According to CMS officials, the software edit in place in CMS’s Medicare Drug Data Processing
System during our audit period enabled CMS to identify and reject PDE data that sponsors
submitted for ED drugs prescribed for the treatment of sexual or erectile dysfunction. However,
according to the officials, the edit did not prevent CMS from accepting PDE data for some ED
drugs in CY 2007 and most of CY 2008 because the Part D program used an incomplete list of
excluded drugs as the basis for the edit.

ERECTILE DYSFUNCTION DRUG COSTS

Under the MMA, a drug must meet the definition of a Part D drug to be covered by the Part D
program. 5 The MMA excludes from Part D coverage “… a drug when used for the treatment of
sexual or erectile dysfunction, unless such drug were used to treat a condition, other than sexual
or erectile dysfunction, for which the drug has been approved by the Food and Drug
Administration.” Effective January 1, 2007, ED drugs are classified as Part D drugs under
42 CFR § 423.100 only when they are used for the treatment of conditions other than sexual or
erectile dysfunction.

For CYs 2007 and 2008, sponsors submitted and CMS accepted 28,521 PDE records totaling
$3,107,200 in gross drug costs for ED drugs approved only for the treatment of sexual or erectile
dysfunction. (See Appendix A for a list of these drugs.) For example, sponsors submitted PDE
records totaling $3,021,475 in gross drug costs for the drug Viagra (national drug code (NDC)
00069-4220-30). 6 FDA had not approved Viagra for the treatment of any condition other than
sexual or erectile dysfunction at the time of our audit.

INADEQUATE CONTROLS

CMS did not reject all PDE records associated with drugs used for the treatment of sexual or
erectile dysfunction because its edit was not adequate. According to CMS officials, the software
edit in place in CMS’s Medicare Drug Data Processing System during our audit period enabled
CMS to identify and reject PDE data that sponsors submitted for ED drugs prescribed for the
treatment of sexual or erectile dysfunction. However, according to the officials, the edit did not
prevent CMS from accepting PDE data for some ED drugs in CY 2007 and most of CY 2008
because the Part D program used an incomplete list of excluded drugs as the basis for the edit.

4
 We acknowledge that sponsors may elect to cover ED drugs as a supplemental benefit. However, PDE data for
these drugs were not included in our review.
5
    Section 1860D-2(e) of the Act.
6
    An NDC is a unique, three-segment identification number.

                                                         3
Although the officials indicated that CMS had updated its list of ED drugs in CY 2008, CMS
accepted PDE data for some ED drugs during our entire audit period.

RECOMMENDATIONS

We recommend that CMS:

   •   determine whether it can impose financial adjustments on sponsors that were paid for
       furnishing ED drugs used for the treatment of sexual or erectile dysfunction and

   •   strengthen internal controls to help ensure that drugs covered by Medicare Part D comply
       with Federal requirements by:

       o collaborating with FDA to create and maintain a comprehensive list of ED drugs that
         have been approved by FDA for the treatment of sexual or erectile dysfunction,

       o regularly disseminating this list to all sponsors, and

       o periodically updating the edit used to reject PDE data for ED drugs used for the
         treatment of sexual or erectile dysfunction.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our first recommendation and
described corrective actions it was taking. For our second recommendation, CMS concurred that
it should strengthen internal controls and said that it has taken action on implementing PDE edits
to reject ED drugs in its systems. However, CMS did not concur that it should (1) collaborate
with FDA to create and maintain a comprehensive list of ED drugs that have been approved by
FDA for the treatment of sexual or erectile dysfunction and (2) regularly disseminate the list to
sponsors. CMS said that it is updating NDC-based PDE edits on a weekly basis to reject ED
drugs and added that “Part D sponsors are aware of the requirement that ED drugs are excluded
and our existing PDE edits eliminate the need for an additional drug list.” CMS’s comments
appear in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in CMS’s comments has caused us to change our findings or recommendations. As the
administrator of the Medicare Part D program, CMS has the primary responsibility to ensure that
sponsors are administering their Part D plans appropriately. CMS officials informed us during
the audit that edits were in place during the period of review to reject ED drugs in its systems.
Moreover, in its comments, CMS stated that it is updating these edits on a weekly basis.
However, the edits in place during the period of review were not entirely successful in
preventing CMS from accepting PDE data for the ED drugs listed in Appendix A. Therefore, we
continue to recommend that CMS regularly disseminate a list of ED drugs approved by FDA for
the treatment of sexual or erectile dysfunction to all sponsors to ensure compliance within the
Part D program.

                                                4
APPENDIXES
           APPENDIX A: SUMMARY OF MEDICARE PART D ERECTILE DYSFUNCTION DRUGS
               USED FOR THE TREATMENT OF SEXUAL OR ERECTILE DYSFUNCTION



   National                                                   Questioned Costs    Questioned Costs    Total Questioned
  Drug Code                         Trade Name                   for 2007            for 2008               Costs
00002-4462-10   Cialis tablets                                                                $681                $681
00002-4462-34   Cialis tablets                                                                2,574               2,574
00002-4463-30   Cialis tablets                                           $2,906                                   2,906
00002-4464-30   Cialis tablets                                           14,414                                  14,414
00002-4465-34   Cialis tablets                                                                1,811               1,811
00009-5181-01   Caverject impulse powder for injection                      850                                     850
00009-5182-01   Caverject impulse alprostadil for injection              17,340                                  17,340
00009-7686-04   Caverject sterile powder for injection                      998                                     998
00069-4200-30   Viagra tablets                                            5,791                                   5,791
00069-4210-30   Viagra tablets                                           20,585                                  20,585
00069-4210-66   Viagra tablets                                              603                                     603
00069-4220-30   Viagra tablets                                        1,804,916           1,216,559           3,021,475
00069-4220-66   Viagra tablets                                            4,556                                   4,556
00085-1901-01   Levitra tablets                                           2,214                                   2,214
00085-1934-01   Levitra tablets                                           9,174                                   9,174
00085-1945-01   Levitra tablets                                             342                                     342
62541-0120-06   Muse suppositories                                          145                                     145
62541-0140-06   Muse suppositories                                          741                                     741
 Total                                                              $1,885,575          $1,221,625          $3,107,200
                                                                                                                      Page 10f2


APPENDIX B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS


 /.,..... ... .
         ~.~




 (.      ~ 	         DEPARTMENT OF HEALTH & HUMAN SERVICES                  , .._'o'_
                                                        __ _ _ _ _ ___C_._"'_                           Med"'
                                                                                                        ____'_&__Me<l_""~S'_MC_
                                                                                                                     ___ '    ._.

  ~                                                                                           Mm~_~
                                                                                              WaShIngton, DC 20201




                  DATE:           JAN 0 5 2011
                  TO: 	         Daniel R. Levinson 

                                Inspector General 


                  FROM: 	                                            \ ~-
                                Donald M. Berwick, M.D,,-.---.:::=:::;;7               -. 

                                Administrator          C_ 

                  SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Review of Erectile Dysfunction
                             Drugs in the Medicare Part D Program" (A-07-1O-0J 14))


                  Thank you for the opportunity to review and comment on the subject draft report. This report
                  finds that the Centers for Medicare & Medicaid Services (eMS), during the period from 2007
                  and 2008 did not reject prescription drug event (PDEs) for drugs used for Erectile Dysfunction
                  (ED) due to an incomplete drug filter.

                  The OIG recommendations and eMS responses are provided below.

                  DIG Recommendation

                  eMS should determine whether it can impose financial adjustments on sponsors that were paid
                  for furnishing ED drugs used for the treatment of sexual or erectile dysfunction.

                  eMS Response

                  The eMS concurs with the OIO's recommendation and will examine the feasibility of imposing
                  financial adjustments on sponsors that were paid for furni shing ED drugs used for the treatment
                  of sexual or erectile dysfunction . Our detennination regarding the feas ibility of imposi ng
                  financial adjustments i.n this situation will be based on whether it is appropriate and cost
                  effective to reopen the final payment detenninalions for Calendar Year (C Y) 2007 andlor CY
                  2008 to recover the costs of claims for drugs used for the treatment of sexual or erectile
                  dysfunction paid in those years.

                  D IG Recommendation

                  e MS should strengthen internal controls to help ensure that drugs covered by Medicare Part 0
                  comply with Federal requirements by collaborating with the Food and Drug Administrat ion
                  (FDA) to Create and maintain a comprehensive list of ED drugs that have been approved by FDA
                                                                                                       Page 2 of2




Page 2 - Daniel R. Levinson

for thc treatment of sexual or erecti le dysfunction and regularly disseminate this list to all
sponsors.

e MS Response

The eMS concurs with the GIG's recommendation to strengthen internal controls, and eMS has
already taken action on implementing POE edits to reject ED drugs in our systems and is
updating these National Dru g Code (NDC) based edits on a weekly basis. Therefore, we do not
concur with the OTG thai eMS and FDA should create a list of ED drugs to be sent to our
sponsors. Part 0 sponsors arc aware of thc requirement thai ED drugs arc excluded and our
existing POE edits eliminate the need for an additional drug list. We believe that the creation
and distribu tion of such a list would not further enhance the efficacy of our exi~tinB POE edits in
preventing Med icare payment for ED drugs.

OIG Recommendation

CMS should strengthen internal controls to help ensure Ihat drugs covered hy Medicare Part 0
comply with Federal requi rements by periodically updating the edit used to reject PDE data for
ED drugs used for the treatment of sexual or erectile dysfunct ion.

e MS Response

The CMS concurs with this recommendation, and lH:tcd on it in 2008 when we developed
addi tional system functionality to update NDC edits on a weekly basis. We implcmcnted this
funct ionality in 2009. and havc continued to update NDC edits since then.

We again thank you for the opportunity to review and comment on the DIG subjcct draft report.
